Office of Inspector General
      Annual Performance Report FY 2010
        Annual Performance Plan FY 2011




                                  DOE/IG-APP012
Annual Performance Report
           FY 2010

 Annual Performance Plan
           FY 2011




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
                                 THIS PAGE INTENTIONALLY LEFT BLANK




II   DEPARTMENT OF ENERGY, Office of Inspector General
Message from the Inspector General
                                    I am pleased to submit the Office of Inspector General’s
                                    combined Fiscal Year 2010 Annual Performance Report and
                                    Fiscal Year 2011 Annual Performance Plan.

                                     Over the past year, much of our work has centered on oversight
                                     of the Department of Energy’s efforts under the American
                                     Recovery and Investment Act of 2009 (Recovery Act). Under
                                     the Recovery Act, the Department of Energy received just
                                     under $40 billion for various energy, environmental, and
                                     science programs and initiatives. In addition, the Recovery Act
                                     also created the Recovery Accountability and Transparency
Board, in recognition of the need for effective oversight to protect taxpayer’s interest. Under the
statue, the Department of Energy’s Inspector General is a member of the Board.

In line with the spirit of the Recovery Act, our goal is to work with Department management to
maximize efforts to achieve programmatic accountability and transparency. Moving forward, we
plan to continue our focus on helping management achieve the programmatic objectives of the
Recovery Act as they apply to the Department of Energy. We also plan to continue our efforts
in other vital Department sectors, including areas such as environmental remediation, stockpile
stewardship, worker and community safety, cyber security and various aspects of contract and
program management.

My staff and I are committed to the many challenges facing the Department and we look forward
to working with our Department of Energy colleagues in the interest of the American people.




	                                                    Gregory H. Friedman
	                                                    Inspector General




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   III
                                 THIS PAGE INTENTIONALLY LEFT BLANK




IV   DEPARTMENT OF ENERGY, Office of Inspector General
Table of Contents
		
		                                                                                                                            PAGE
Overview, Vision, and Mission..........................................................................................................3

FY 2010 OIG Performance Results................................................................................................5	

Relationship with the Department of Energy........................................................................25

FY 2011 Funding Priorities...............................................................................................................27

FY 2011 Performance Plan...............................................................................................................29

Our Organization
	                    Office of Audit Services........................................................................................................35
	                    Office of Inspections and Special Inquiries........................................................................41
	                    Office of Investigations. .......................................................................................................43


Appendix A
	                    Planned FY 2011 Audits.......................................................................................................46
	                    Planned FY 2011 Inspections...............................................................................................50


Appendix B
	                    OIG Responsibilities and Authorities and Other Mandates ............................................51


Appendix C
	                    Validation and Verification..................................................................................................52




                                                                                                    FY 2010 ANNUAL PERFORMANCE REPORT                      1
                                THIS PAGE INTENTIONALLY LEFT BLANK




2   DEPARTMENT OF ENERGY, Office of Inspector General
Overview, Vision, and Mission

A    s mandated by the Inspector General Act of 1978, as amended, the Office of Inspector
     General (OIG) promotes the effective operation of the Department of Energy
(Department), including the National Nuclear Security Administration (NNSA) and the Federal
Energy Regulatory Commission (FERC). This is accomplished through audits, inspections, and
investigations designed to improve economy and efficiency and to detect and prevent fraud, waste,
abuse, mismanagement, and violations of law. As part of a collective effort, the OIG’s goal is to
ensure that the Department is:

✹✹    Fulfilling its program goals effectively;
✹✹    Using its resources efficiently in this pursuit;
✹✹    Operating within the scope of its legislative mandates;
✹✹    Meeting Presidential Reform Initiatives; and,
✹✹    Addressing Departmental mission priorities established by the Secretary.


This report highlights the OIG’s Fiscal Year (FY) 2010 actual performance and FY 2011 planned
activities. The goals, objectives, and strategies included in this document will be used to plan,
measure and report on OIG results. This document includes the results of FY 2010 audits,
inspections, investigations, and special requested actions; continued efforts to improve the OIG in
alignment with Presidential Reform Initiatives; the relationship between the Department and the
OIG; and, the plan to fund and accomplish FY 2011 goals. Appendices include the FY 2011 audit
and inspection plans; OIG responsibilities, authorities and other mandates; and, validation and
verification of OIG performance activities.

Vision
To be a highly effective organization that promotes positive change by identifying opportunities for
improvements in the performance and efficiency of the Department’s programs and operations.

Mission
To promote the effective, efficient, and economical operation of the Department through audits,
inspections, investigations, and other reviews to detect and prevent waste, fraud, abuse, and
violations of law.




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   3
                                THIS PAGE INTENTIONALLY LEFT BLANK




4   DEPARTMENT OF ENERGY, Office of Inspector General
FY 2010 OIG Performance Results
The OIG continues to make positive contributions to the Department’s mission-related priorities.
Some highlights of the work we accomplished in FY 2010 include:




            Total Reports Issued:	                                                    89
            	    Recovery Act Reports	                                                25
            	    Audit Reports	                                                       53
            	    Inspection Reports	                                                  11

            Funds Put to Better Use	                                      $29.8 million

            Fines, Settlements, and Recoveries	                          $206.6 million

            Criminal Convictions	                                                     28

            Suspensions and Debarments	                                               17

            Potential Recoveries from 13 Open False
            	   Claims Act Investigations	                               $466.5 million

            Civil or Administrative Actions 	                                        116

            Hotline Complaints and Inquiries
            	    Received	                                                         4,724
            	    Processed	                                                        1,991

            Recovery Act Whistleblower Complaints and Inquiries
            	   Received	                                                             14
            	   Processed 	                                                           10




                                                                   FY 2010 ANNUAL PERFORMANCE REPORT   5
     The OIG measures its performance against long-term and annual goals set forth in OIG planning
     documents. During this reporting period, the OIG successfully achieved its FY 2010 performance
     goals. In most instances, the OIG exceeded its goals. The following are the specific results:




       GOAL 1
       Promote Presidential Reform Initiatives, Secretarial Mission Priorities,
       and Congress

       OBJECTIVE 1:
       Conduct reviews seeking positive change in the Department relating to the
       implementation of Presidential Reform Initiatives, the Secretary’s Mission Priorities,
       and the OIG-identified Management Challenges.

       Performance Measures: 						                                                   Accomplishments
       1a. 	 By the end of FY 2010, complete reviews that address 	                       Met Goal
       	     address each Presidential, Secretarial, and OIG initiative,
       	     priority, and/or challenge as identified in FY 2010.		

       1b. 	 At least 30% of inspection reports will address safety	                      Met Goal
       	     or security-related topics. 		

       	                Audits	                          Inspections	                  Investigations
       1a.	   A total of 78 audit reports 	        A total of 11 reviews were	         (Not applicable)
       	      were issued that addressed 	         completed that addressed
       	      the Presidential Reform 	            the Presidential Reform
       	      Initiatives, Secretarial Mission 	   Initiatives, Secretarial Mission
       	      Priorities, and OIG-identified	      Priorities, and OIG-identified
       	      Management Challenges. 	             Management Challenges.

       1b.	 (Not applicable)	                      A total of 45% (5 of 11 reports	    (Not applicable)
       			                                         as of September 30, 2010)
       			                                         were conducted to address
       			                                         safety-related topics.




6   DEPARTMENT OF ENERGY, Office of Inspector General
PERFORMANCE HIGHLIGHTS:
Audits
Audits related to OIG-identified Management Challenges include:

✹✹   An audit was conducted to determine whether the development of the Product Realization
     Integrated Digital Enterprise (PRIDE) Program had been managed in a manner that would
     permit the system to achieve its intended goals and objectives. Our audit revealed that
     PRIDE had not been well-planned and adequately managed as an information technology
     investment. In particular, program officials had not always applied sound capital planning and
     investment control practices as required for an effort of this magnitude and complexity. These
     weaknesses occurred primarily due to inadequate management guidance and direction and
     ineffective program monitoring. We made recommendations, which if fully implemented,
     should (1) help increase the likelihood of accomplishing and sustaining PRIDE’s long-
     term goals; (2) assist the Department in its general efforts to improve contract and project
     administration; and, (3) advance the President’s commitment to promote transparency and
     accountability. Management generally concurred with our recommendations and stated its
     intention to initiate corrective actions to address the recommendations.
     http://www.ig.energy.gov/documents/IG-0836.pdf
✹✹   An audit was conducted to determine whether Los Alamos National Laboratory (Los
     Alamos) had fully implemented the required nuclear safety management regime. Our review
     disclosed that despite repeated efforts by Los Alamos to address nuclear safety issues, past
     actions had not been successful in ensuring that all nuclear safety management requirements
     were fully implemented. We concluded that management had not focused sufficient
     attention in the past on implementing the nuclear safety Quality Assurance Program
     throughout Los Alamos. We noted that Los Alamos has recently taken some positive steps
     designed to address weaknesses in nuclear safety. Yet, it had not developed and approved a
     corrective action plan establishing milestones and identifying the resources needed to address
     enhanced processes and procedures. Until Los Alamos corrects weaknesses in the analysis
     of hazards, establishes compensating internal controls, identifies and addresses all unresolved
     quality assurance issues and completes implementation of its ongoing initiatives, there is
     no assurance that safety risks associated with work processes are minimized. Management
     generally agreed with the report and stated that although the operations at Los Alamos are
     safe, continued improvement is needed to meet expectations for NNSA’s nuclear facilities.
     http://www.ig.energy.gov/documents/IG-0837.pdf




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   7
     ✹✹    We conducted an audit to determine whether the Department had adequately managed
           the disposition of Uranium-233 (U-233). Our results found that the Department’s U-233
           disposition project (1) had encountered a number of design delays; (2) may exceed original
           cost estimates; and, (3) will likely not meet completion milestones. Specifically, our testing
           disclosed that despite 4 years of effort by the Office of Environmental Management and the
           expenditure of about $36 million, project planning and design had yet to be completed and
           the cost baseline was approved relying on inaccurate assumptions and, thus, unlikely reliable.
           Management agreed with our recommendations, the interest of which was to control costs
           and increase the likelihood that the project is completed in a timely and successful manner.
           http://www.ig.energy.gov/documents/IG-0834.pdf.

           In addition, to provide oversight of Recovery Act programs, we performed several audits
           associated with the Department’s implementation and execution of its Recovery Act
           responsibilities.
     ✹✹    An audit was conducted to determine whether the Department’s quality assurance process
           over data reported by all recipients was effective and whether the Department’s prime
           contractors were prepared to track and report on Recovery Act activities. Our review revealed
           that the Department had taken a number of actions designed to ensure the accuracy and
           transparency of reported Recovery Act results. However, opportunities exist to strengthen
           the process, thus reducing the risk of material errors and improving the transparency of
           publicly reported Recovery Act information. We also observed that the Department had
           taken prompt action to ensure that its prime facility management contractors could properly
           report Recovery Act information. We made recommendations which should help enhance
           the Department’s ability to ensure that its responsibilities under the Recovery Act are met.
           Management agreed with our recommendations and indicated that it had taken corrective
           actions. http://www.ig.energy.gov/documents/OAS-RA-10-06.pdf.
     ✹✹    An audit was conducted to determine whether the Department had implemented actions it
           had announced in 2007 to strengthen the ENERGY STAR Program. Our audit disclosed
           that the Department had not (1) developed a formal quality assurance program to help
           ensure that product specifications were adhered to; (2) effectively monitored the use of the
           ENERGY STAR label to ensure that only qualifying products were labeled as compliant;
           and, (3) formalized procedures for establishing and revising product specifications and for
           documenting decisions regarding those specifications. The delay in the Department’s planned
           improvements in its management of the ENERGY STAR Program could reduce consumer
           confidence in the integrity of the ENERGY STAR label, thus reducing energy savings,
           increasing consumer risk, and diminishing the value of the recent infusion of $300 million
           for ENERGY STAR rebates under the Recovery Act. Management generally agreed with


8   DEPARTMENT OF ENERGY, Office of Inspector General
     our audit finding and recommendations and noted that the Department’s recently updated
     Memorandum of Understanding with the Environmental Protection Agency addressed the
     issues raised in our report. http://www.ig.energy.gov/documents/IG-0827.pdf
✹✹   We conducted an audit to determine whether the Performance and Accountability for Grants
     in Energy (PAGE) System was developed and implemented in accordance with Department
     and Federal cyber security and project management requirements. Our audit revealed that
     although PAGE had been partially deployed and was being used by the Office of Energy
     Efficiency and Renewable Energy (EERE) and grant recipients, it did not satisfy a number of
     important cyber security requirements. In addition, the development of the system was not
     conducted in accordance with Federal requirements. EERE’s decisions to not perform cyber
     security and project management tasks placed the PAGE system and the network on which it
     resides at increased risk that the confidentiality, integrity, and availability of the Department’s
     information systems and data could be compromised. We made several recommendations,
     which if fully implemented, should help improve future system development efforts and
     enhance the Department’s cyber security posture. Management generally concurred with the
     recommendations in the report and indicated that corrective actions were underway.
     http://www.ig.energy.gov/documents/OAS-RA-10-14.pdf
✹✹   An audit was initiated to evaluate the Department’s progress in implementing the Energy
     Efficiency and Conservation Block Program (Program) and the Recovery Act. Our review
     disclosed that as of August 2010, grant recipients had expended only about 8.4 percent of
     the $3.2 billion authorized for the Program. To their credit, both the Department and grant
     recipients had taken a number of positive actions to implement the Program. However,
     rapid spending of Program funds was hampered by numerous administrative and regulatory
     challenges associated with implementing a new program at multiple levels of government,
     including Federal, state and local governmental entities. We believe that our findings in
     this area suggest lessons learned and best practices which will prove useful in implementing
     similar grant programs in the future or in continuing this Program should it be reauthorized.
     Management fundamentally disagreed with the report’s conclusion that the Program has
     not achieved its economic stimulus and job creation goals. Specifically, management stated
     that obligations by the grant recipients are a better measure of the Program’s economic
     impact than spending since the obligation of funds shows that the recipients have contracts
     in place upon which contractors based their hiring decisions. In our view, although funds
     obligated by grant recipients is a “leading indicator” of the Program’s future stimulative effect,
     we concluded that the amount of funds actually spent is a sound measure of the economic
     activity created by the Program to date.
     http://www.ig.energy.gov/documents/OAS-RA-10-16.pdf




                                                                       FY 2010 ANNUAL PERFORMANCE REPORT   9
      Inspections
      Inspections and reviews related to the Presidential Reform Initiatives, the Secretary’s Mission
      Priorities, and the OIG-identified Management Challenges were as follows:

      ✹✹    We conducted an inspection at Sandia National Laboratories-New Mexico (Sandia) to
            determine whether Sandia made appropriate adjustments to its security posture in response
            to the removal of the Categories I and II Special Nuclear Material (SNM). Our inspection
            revealed that Sandia did adjust its security posture in response to the removal of Categories I
            and II SNM. However, some highly enriched uranium in a complex material configuration
            was not removed from Sandia. This material was designated as Category III material
            using a methodology for assessing the attractiveness of complex materials that was not
            specifically addressed in any current Department directive. Management agreed with our
            recommendations to formalize this methodology in the Department directives system and
            disseminate it throughout the Department of Energy complex.
            http://www.ig.energy.gov/documents/IG-0833.pdf
      ✹✹    An inspection was conducted at the Savannah River Site (Savannah River) to review the facts
            and circumstances regarding a complaint which alleged that former contractor employees
            had received severance payments under the 2007 Savannah River workforce restructuring
            and that these employees were subsequently rehired to perform in the same or similar
            functional job areas but were not required to repay appropriate severance money. We found
            that 37 former contractor employees who participated in the 2007 workforce restructuring
            inappropriately received approximately $1.1 million in severance payments. Specifically,
            21 former Westinghouse Savannah River Company employees were subsequently rehired
            and not required to repay approximately $300,000 and an additional 16 employees received
            $780,000 in severance payments despite the Site’s established need for retaining employees in
            critical positions. Management agreed with our recommendations to determine if severance
            money paid to these employees should be deemed a disallowed cost.
            http://www.ig.energy.gov/documents/INS-O-10-02.pdf
      ✹✹    We conducted an inspection at selected Department sites to review a complaint alleging the
            need for improvements and clarifications in both the Department and NNSA site-specific
            policies and procedures regarding visitor access to nuclear weapons data and displays within
            certain NNSA national security vaults. We found that DOE Order 5610.2, issued in 1980,
            should be updated to address current procedures, responsibilities and authorities with regard
            to controlling and granting access to nuclear weapons data within the nuclear weapons
            complex. We also found that site-specific procedures concerning access could be improved to
            strengthen management internal controls and help ensure only those who have a




10   DEPARTMENT OF ENERGY, Office of Inspector General
     need-to-know are allowed access to nuclear weapons data in the national security vaults.
     Management agreed with our suggestions for improving policies and procedures used for
     approving access to nuclear weapons data in national security vaults.
     http://www.ig.energy.gov/documents/INS-L-10-02.pdf
✹✹   An inspection was conducted at Oak Ridge National Laboratory (Oak Ridge) to determine
     whether Oak Ridge had adequate internal controls to track and control internal computer
     hard drives and whether internal computer hard drives at Oak Ridge were being removed
     contrary to Oak Ridge’s cyber security policies and procedures. We concluded that Oak
     Ridge had not implemented controls to encrypt, or track and control hard drives, that may
     contain sensitive unclassified information. Management agreed with our recommendations
     to implement Department requirements to protect the hard drives by approved encryption, or
     tracking and control hard drives until purged or destroyed.
     http://www.ig.energy.gov/documents/INS-O-10-03.pdf
✹✹   We conducted an inspection at a Department site to review a complaint alleging that the
     Department’s contractor managing the site violated the minimum staffing requirements
     of the site Security Incident Response Plan (SIRP). We determined that site contractor
     did violate the minimum staffing requirements contained in the site’s SIRP. Specifically,
     site security officials reassigned Security Police Officers from SIRP related duties to other
     responsibilities contrary to the minimum SIRP staffing requirements in existence at that
     time. Management agreed with our suggestions to improve oversight of staffing levels for
     daily shift assignments to ensure they are consistently met under the new SIRP requirements.
     http://www.ig.energy.gov/documents/INS-L-10-01.pdf




                                                                   FY 2010 ANNUAL PERFORMANCE REPORT   11
       	
           GOAL 2
           Improve economy and efficiency and reduce waste, fraud, and abuse within
           the Department

           OBJECTIVE 2:
           Concentrate OIG efforts on issues that have the greatest impact and usefulness to
           the Department.

           Performance Measures: 					                                               Accomplishments

           2a. 	 Ensure that every performance review includes an analysis of 	          Met Goal
           	     program accomplishments and the use of metrics to measure
           	     results.	

           2b. 	 Ensure that 57% of all performance audits include	 	                 Exceeded Goal
           	     recommendations leading to demonstrable cost savings,
           	     program efficiencies, and/or funds put to better use.	

           2c. 	 Complete five follow-up reviews annually to determine the 	          Exceeded Goal
           	     status and efficacy of corrective actions.	

           2d. 	   By June 30, 2010, complete an annual risk-based programmatic 	        Met Goal
           	       assessment that considers OIG institutional knowledge; past
           	       program performance; funding levels; Presidential, Secretarial,
           	       and congressional concerns; Recovery Act initiatives; and,
           	       input from Department program managers.	

           2e. 	 Ensure 80% of all planned performance audits address high-risk 	     Exceeded Goal
           	     areas as identified in the OIG annual risk-based programmatic
           	     assessments.	

           2f. 	 Strive for the Department to accept at least 79% of OIG report 	     Exceeded Goal
           	     recommendations.	

           2g. 	 Ensure that 10% of all planned inspections address Recovery 	        Exceeded Goal
           	     Act-funded activities.	




12   DEPARTMENT OF ENERGY, Office of Inspector General
	 	               Audits	                                Inspections	                    Investigations
  2a. 	   All 65 performance audits          All performance reviews completed	          (Not applicable)
  	       completed included an              during the reporting period included
  	       analysis of program                an analysis of program accomplishments
  	       accomplishments and the use        and the use of metrics to measure results
  	       of metrics to measure results.     or documented that an analysis was
  	                                          not appropriate or required.

  2b.	    86 percent of all performance             (Not applicable) 	                   (Not applicable)
  	       audits issued included
  	       demonstrable cost savings,
  	       program efficiencies and/or
          funds that can be put
          to better use in excess of
          $29.8 million.
  2c.	    Six of the 65 performance          Of the 11 performance reviews 	             (Not applicable)
  	       audits completed were              completed, 1 was a follow-up review
  	       follow-up reviews to               to determine the status and
  	       determine the status and           efficiency of corrective actions.
  	       efficacy of corrective actions.
  2d.	 52 risk-based programmatic            Risk-based assessment were	                 (Not applicable)
  	    assessments for the                   conducted for all inspections.	
       Department, NNSA, and
       program activities were
       completed by June 30, 2010.
  2e.	    87 percent of our planned                 (Not applicable)	                    (Not applicable)
  	       performance audits addressed
  	       high-risk and sensitive areas
  	       identified in the OIG annual
  	       risk-based programmatic                            	
  	       assessments.
  2f.	    There were 108 audit              All recommendations (a total of 13) 	        (Not applicable)
  	       recommendations included          were accepted as of September 30, 2010.
  	       in the 65 performance audits
          conducted in FY 2010. The
          Department concurred
          with 95 percent of our
          recommendations.

  2g.	    	   (Not applicable)               16 percent of planned inspections 	         (Not applicable)
  	                                          addressed Recovery Act-funded
  	                                          activities.


                                                                         FY 2010 ANNUAL PERFORMANCE REPORT   13
      Performance Highlights:

      Audits
      For the performance audits issued, 86 percent identified demonstrable cost savings, program
      efficiencies, and/or funds that can be put to better use in excess of $29.8 million.

      For example:

      ✹✹    Based on our audit of “Waste Processing and Recovery Act Acceleration Efforts for Contact-Handled
            Transuranic Waste at the Hanford Site,” the Department risks spending up to $25 million more
            and would fail to achieve the previously anticipated reductions in volume associated with the
            original plan to process the waste. http://www.ig.energy.gov/documents/OAS-RA-10-10.pdf
      ✹✹    Based on our audit of “The Department of Energy’s Opportunity for Energy Savings Through
            Improved Management of Facility Lighting,” there is a possibility that the Department could
            save over $2.2 million in electric utility operating costs annually, equating to the amount of
            electricity used to power over 3,200 homes per year.
            http://www.ig.energy.gov/documents/IG-0835.pdf
      ✹✹    Based on our audit of “The Office of Science’s Management of Information Technology Resources,”
            there is the potential for savings of more than $3.3 million over the next three years by better
            controlling hardware costs and implementing standards for certain equipment.
            http://www.ig.energy.gov/documents/IG-0831.pdf


      Fundamental to the annual audit planning process is conducting risk assessments and the
      development of audit profiles. The OIG considers all major contractor sites to be high risk. Other
      considerations, include OIG institutional knowledge; past program performance; funding levels;
      and, Presidential, Secretarial, and congressional concerns. By June 30, 2010, we completed risk-
      based programmatic assessments for each Department, NNSA, and program activity. These risk
      assessments resulted in the identification of significant auditable entities at various Department
      locations. Another part of our audit planning process includes input from Department management,
      other interested parties, and the OIG staff.

      We also performed audits in response to congressional requests. For example, our audit of “Former
      Uranium Enrichment Workers: Questions Regarding Equity in Pension Benefits,” was performed in
      response to a request from a California Congressman, soliciting our opinion on matters related to
      legislation being considered that would provide increases in annuities equal to those received by
      Oak Ridge contractor employees. We concluded that the Department’s decision to not provide
      a portion of the surplus assets to the United States Enrichment Corporation (USEC) plan

14   DEPARTMENT OF ENERGY, Office of Inspector General
was not unreasonable. Under the circumstances, however, the concern of the USEC retirees is
understandable. We also opined that if Congress were to enact special legislation, the Department
appears capable of administering any lump sum payments.
http://www.ig.energy.gov/documents/OAS-L-10-06.pdf


INSPECTIONS

For the inspection reports issued, two identified potential monetary benefits and program
efficiencies. For example:

✹✹    Based on our inspection of “Protective Force Overtime Pay at Lawrence Livermore
      National Laboratory,” we recommended that Livermore improve overtime justification
      documentation, that responsible supervisors verify eligibility for overtime payments, and
      that the Department oversight authority for the Livermore contract review the allowability
      of overtime costs questioned as part of our review. Department management concurred
      with our recommendations and stated in a December 10, 2009, memorandum that all
      recommendations had been completed, and that the amount of $581,194 was an unallowable
      cost which the site contractor had agreed to repay to the Government as a result of our
      inspection effort. http://www.ig.energy.gov/documents/INS-O-07-03.pdf
✹✹    Based on our inspection of “Severance Payments at the Savannah River Site”, we recommended
      that Savannah River determine if approximately $1.1 million in severance money paid to
      employees who were in critical positions, or who subsequently returned to work, should be
      deemed a disallowed cost. Management agreed with the recommendation.
      http://www.ig.energy.gov/documents/INS-O-10-02.pdf


A vital piece in evaluating the Department’s programs and operations is the Office of Inspections and
Special Inquiries’ (OISI) risk-based assessments. These assessments assist the OISI with developing
inspection topics for its annual inspection plan that is implemented each fiscal year. The inspection
topics are developed based on past program performance, stakeholder interest (i.e. Congress and the
Secretary of Energy) and input from Department management and OIG personnel.

Of the 11 reports issued by OISI, the Department concurred with all 13 recommendations. OISI
also made six suggestions to improve program operations for which the Department indicated that it
would implement corrective actions. The following are examples of positive outcomes resulting from
inspection recommendations:




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   15
      ✹✹    The Office of Environmental Management (EM) issued a letter to all site managers with EM
            cleanup work highlighting the issue of compliance with Federal requirements concerning
            verification of employment status. In addition, the Savannah River Operations Office issued
            letters to the appropriate contractors informing and emphasizing their obligation to ensure
            compliance with all applicable employment laws and regulations, including employment and
            citizenship verification. http://www.ig.energy.gov/documents/INS-O-10-01.pdf
      ✹✹    The Office of Health, Safety and Security, Office of Security Policy, is pursuing a policy change
            that will include additional guidance on the use of the “weight percent criteria” to properly
            categorize special nuclear materials in certain configurations, including reactor fuel for the
            Annular Core Research Reactor at Sandia National Laboratories – New Mexico.
            http://www.ig.energy.gov/documents/IG-0833.pdf
      ✹✹    The Oak Ridge National Laboratory established a Six Sigma Team to address the disposition
            and disposal of hard drives. The Team is currently working on a method to track hard drives
            when they are removed from computers, as well as employee awareness. Awareness bulletins
            have been issued and the site plans to continue this effort on a routine basis.
            http://www.ig.energy.gov/documents/INS-O-10-03.pdf
      ✹✹    The Savannah River Operations Office, Acquisition Operations Division, Contractor
            Industrial Relations Team, along with a Contract Specialist from the Contracts Management
            Division, is coordinating with the Office of Inspector General to review records and determine
            whether severance money totaling approximately $1.1 million should be identified as a
            disallowed cost and repaid to the Federal government.
            http://www.ig.energy.gov/documents/INS-O-10-02.pdf




16   DEPARTMENT OF ENERGY, Office of Inspector General
OBJECTIVE 3:
Provide timely information to the Department so that prompt action can be taken to
improve program performance.

Performance Measures: 						                                                 Accomplishments
3a. 	 Issue 80% of audit reports no later than 60 days following receipt 	    Exceeded Goal	
			 of management comments. 	

3b. 	 Ensure that the average time to issue Investigative Reports to 	 Exceeded Goal
			 Management (IRMs) is 50 days or less following final resolution
			 of criminal, civil, and administrative investigations.		

3c. 	 Issue 70% of inspection reports (on average) within 60 days of 	           Met Goal
			 receiving management comments. 	

	                Audits	                           Inspections	                Investigations
3a. 	   For the audits completed 	                (Not applicable)	           (Not applicable)
			     in FY 2010, 100 percent were
			     issued within 60 days following
			     receipt of management
			     comments.

3b.		 (Not applicable)	 (Not applicable)	 IRMs were issued
						in 10 days, on 	
						average, following 	
						final resolution of	
						criminal and/or 	
						civil action.

3c.			 (Not applicable)	                    70 percent of the inspection 	 (Not applicable)
				                                        reports (on average were
				                                        issued within 60 days of
				                                        receiving management
				                                        comments.			




                                                                  FY 2010 ANNUAL PERFORMANCE REPORT   17
        OBJECTIVE 4:
        Strengthen financial management and cyber security through completion of mandatory
        reviews in accordance with OMB and other applicable requirements.

        Performance Measures: 						                                               Accomplishments
        4a. 	 Complete annually, by the established due date, the Department’s 	      Met Goal
        	     Consolidated Financial Statement audits to determine whether the
        	     financial statements are free from material misstatement. 	

        4b. 	 By September 30, 2010, review the Department’s classified and 	       Exceeded Goal 	
        	     unclassified information security system programs in accordance
        	     with the Federal Information Security Management Act of 2002. 	

        4c. 	 Initiate 10 “Statement of Costs Incurred and Claimed” audits 	        Goal Not Met
        	     annually to assess internal controls over costs claimed by the 	
        	     Department’s major contractors.

        	                  Audits		                             Inspections	        Investigations
        4a. 	   The Department’s FY 2010 Consolidated	         (Not applicable)	    (Not applicable)
        	       Financial Statement were issued on
        	       November 12, 2010, and resulted in an
        	       unqualified opinion.	

        4b. 	   We completed reviews of the 	                  (Not applicable)	    (Not applicable)
        	       Department’s unclassified information
        	       security systems in accordance with the
        	       Federal Information Security Management
        	       Act of 2002. The reviews were completed
        	       in October 2010, well ahead of the
        	       OMB’s revised reporting date of
        	       November 15, 2010.

        4c.	    We completed 17 and initiated 9 	              (Not applicable)	    (Not applicable)
        	       Statement of Costs Incurred and Claimed
        	       audits to determine whether the
        	       Department’s integrated contractors
        	       were reimbursed for allowable costs
        	       consistent with their contracts.




18   DEPARTMENT OF ENERGY, Office of Inspector General
Performance Highlights:

The audit of the Department’s Consolidated Financial Statements did not identify any deficiencies
in internal control over financial reporting that would be considered material weaknesses. However,
the audit found significant deficiencies in the Department’s internal controls over unclassified
network and information systems security. While the Department has made progress in addressing
previously identified cyber security weaknesses, network vulnerabilities and weaknesses in access
and other security controls over unclassified computer information systems continued to exist.

Also, as a result of our review of the unclassified information security systems, we found that the
Department had taken steps to improve its cyber security program by resolving remote system
management issues; establishing procedures and practices for minimizing risks form configuration
management vulnerabilities; establishing a Cyber Security Governance Council and Cyber Security
Advisory Group to lead cyber security reform initiatives; working toward updating Department
cyber security directives; and, initiating actions to transform its risk management framework to
automate and standardize reporting requirements and deploy continuous monitoring tools. While
the Department is taking steps to improve its cyber security program, additional action is required
to reduce the risk of compromise, loss, modification, and non-availability to its information systems
and data. We have identified areas for improvement, related to configuration and vulnerability
management, access controls, and security planning and testing.

While we completed 17 Statement of Costs Incurred and Claimed Audits, nine Statement
of Incurred and Claimed Audits – the goal was to initiate ten such audits. Due to higher
priority work driven by audits required by the American Recovery and Reinvestment Act and
Congressional requests, especially in the area of health and safety, we were unable to initiate an
additional audit to meet this goal.




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   19
        OBJECTIVE 5:
        Concentrate investigative efforts on allegations of criminal and civil violations of law
        that adversely impact major Department programs and operations, with emphasis on
        maximizing the recovery of public resources and deterring future wrongdoing.

        Performance Measures: 		                                                 Accomplishments
        5a. 	 Achieve an annual acceptance rate of 72% for cases 	                 Exceeded Goal
        	     presented for prosecutorial consideration, with an
        	     enhanced focus on Recovery Act cases.	

        5b. 	   Ensure 75% of all cases opened focus on key areas of 	             Exceeded Goal
        	       Department vulnerability, specifically procurement
        	       and grant fraud, environmental violations, Qui Tams,
        	       or computer crimes.

        	            Audits	                    Inspections	                       Investigations
        5a.	 (Not applicable)	 (Not applicable)	                            The OIG achieved a 			
        			                                                                 prosecutorial acceptance
        			                                                                 rate of 90%.

        5b.	 (Not applicable)	 (Not applicable)	                            Of the cases opened i	n FY 2010,
        			                                                                 77% focused on key areas 		
        			                                                                 vulnerability i	n the Department.



      Performance Highlights:

      An OIG investigation determined that a former NNSA subcontractor employee made false statements
      to support his eligibility to receive long term temporary assignment benefits (per diem) while working
      as an NNSA subcontractor employee on the Mixed Oxide Fuel Fabrication Facility project. The false
      statements resulted in the individual fraudulently receiving $87,646 in benefits to which he was not
      entitled. The individual resigned from his employment and subsequently pled guilty to one count of
      False Statements in Federal District Court, District of South Carolina. The individual was sentenced to
      6 months home detention, 5 years probation, $51,259 in restitution and a $100 special assessment fee.

      An OIG investigation determined that a security services contractor at Savannah River fraudulently
      certified five incurred cost submissions which included expressly unallowable costs. The contractor
      entered into a civil settlement for $650,000 related to violations of the False Claims Act (FCA) and
      Federal Acquisition Regulations (FAR). The settle agreement included $122,597 in single FCA
      damages and $527,402 in FAR penalties, all of which will be returned to the Department.

20   DEPARTMENT OF ENERGY, Office of Inspector General
An OIG investigation determined that a Department mid-level manager improperly directed
Government furniture and other contracts to companies affiliated with her spouse. The manager
resigned her position with the Department. She subsequently pled guilty in the U.S. District
Court, District of Maryland to a Financial Conflict of Interest and her spouse pled guilty to
providing a False Statement. Both were sentenced to 36 months probation, 50 hours of community
service, and a $5,000 fine. They were also ordered not to obtain Government employment or
Government business for 3 years.



  OBJECTIVE 6:
  Coordinate with other law enforcement agencies to establish effective networks in order
  to identify areas that are most vulnerable to waste, fraud, and abuse.

  Performance Measures: 	                                                       Accomplishments
  6a. 	   Ensure 25% of all cases opened were joint agency/task 	                 Exceeded Goal
  	       force investigations with external law enforcement
  	       agencies, such as the Federal Bureau of Investigation
  	       and other OIGs including other agencies with
  	       Recovery Act funding.

  	            Audits	                       Inspections	                         Investigations
  6a.	 (Not applicable)	 (Not applicable)	                                 The OIG opened	153 cases 	
  			                                                                      during FY 2010; 34% were
  			                                                                      joint agency task force
  			                                                                      investigations.



Performance Highlights:

A joint investigation with several law enforcement agencies determined that multiple contractors
received or provided benefits such as rebates, influence fees, referral fees, discounts, and/or development
funds as a result of alliance agreements. To date, the investigation resulted in 3 defendant companies
agreeing to civil settlements totaling $101.2 million. This investigation is ongoing.

A joint investigation found that a Department subcontractor and its president falsified purity levels
of peptides sold to hundreds of public and private research institutions across the United States.
The corporate president pled guilty to 1 count of making a False Statement, and was sentenced to 8
months incarceration, 36 months supervised released, and was ordered to pay a total of $100,000 in
fines and restitution. The company was ordered to pay a $20,000 fine.

                                                                          FY 2010 ANNUAL PERFORMANCE REPORT   21
      A joint investigation found that a subcontractor employee at a Department National Laboratory
      misused his Government computer by viewing child pornography images on a personal thumb
      drive and used his Government computer to communicate with a known child molester. The
      subcontractor employee was suspended and later terminated from employment. He was indicted
      and subsequently pled guilty to one count of Possession of Child Pornography in the U.S. District
      Court for the District of New Mexico. He was sentenced to 128 months incarceration, followed by
      a life-time of supervised release.



          OBJECTIVE 7:
          Heighten awareness of potential fraud among internal and external customers.

          Performance Measures: 						                                             Accomplishments
          7a. 	 Provide 35 fraud awareness briefings annually to Department 	        Exceeded Goal
          	     and contractor employees and managers, with special
          	     emphasis on Recovery Act-related fraud.

          	          Audits	                       Inspections 	                     Investigations
          7a.	 (Not applicable)	 (Not applicable)	                                 The OIG investigative 	
          				                                                                     personnel conducted
          				                                                                     95 fraud awareness
          				                                                                     briefings in FY 2010.



      Performance Highlights:

      Our fraud awareness briefings were presented to over 3,000 Federal employees, contractor officials,
      and fund recipients. While these briefings were designed to discuss the process for reporting
      fraud, waste and abuse to the OIG and to highlight priorities and initiatives of the Office of
      Investigations, emphasis was placed with our operations and oversight of Recovery Act Funds.
      In FY 2011, the OIG will continue to concentrate efforts on educating the community to potential
      fraud indicators as a means of determining fraud, waste and abuse.




22   22   DEPARTMENT OF ENERGY, Office of Inspector General
     GOAL 3
     Support the Taxpayer

     OBJECTIVE 8:
     Provide the Department and the public with an effective and efficient mechanism to report
     waste, fraud, and abuse.

     Performance Measures: 						                                                                    Accomplishments
     8a. 	 Operate the OIG Hotline in a manner that ensures 90% of 	                                  Exceeded Goal
     	     Hotline complaints warranting further action begin processing
     	     within 7 days of receipt. 	

     8b. 	 Forward 90% of the complaints identified for referral to 	                                 Goal Not Met1
     	     Department or other agency management within 14 days of
     	     initiation of the case. 	

     8c. 	 Complete Whistleblower complaints within 180 days.	                                             N/A2

     	           Audits	                                    Inspections	                               Investigations
     8a.	 (Not applicable)	               99 percent complaints began processing	                     (Not applicable)
     		                                   within 7 days of receipt.

     8b.	 (Not applicable)	               59 percent complaints were referred to the	                 (Not applicable)
     		                                   Department within 14 days. 1

     8c.	 (Not applicable)	 A total of 10 Whistleblower complaints 	                                  (Not applicable)
     			were received during this period; however,
     		                     the due dates for completion occur after
     		                     September 30, 2010. 2 	


This goal was not met due to various and unavoidable resource constraints.
1


2
    No Whistleblower complaints were required to be completed by the end of this reporting period.




                                                                                       FY 2010 ANNUAL PERFORMANCE REPORT   23
        OBJECTIVE 9:
        Make the public aware of OIG report.

        Performance Measures: 					                                              Accomplishments
        9a. 	   Ensure that all OIG public reports that were identified for 	         Met Goal
        	       inclusion on the Internet are posted within three working
        	       days of submission to the Secretary, unless otherwise
        	       specified by the Inspector General.

                Audits	               Inspections 	        Investigations       Resource Management

        9a. (Not applicable)	 (Not applicable)	 (Not applicable) 	 All public reports were
        						                                                     posted within three work 	
        							days and an early alert 	
        							system provided 		
        							approved subscribers 	
        							advance notifications of 	
        							the release of the reports.




        OBJECTIVE 10:
        Provide a structure for ensuring a skilled and efficient workforce.

        Performance Measures: 					                                               Accomplishments
        10a. 	 Ensure that all auditors meet the training requirements as	            Met Goal
        	      specified by generally accepted Government Auditing
        	      Standards.
        10b.	 Ensure that all investigators meet the training requirements	           Met Goal
        	     as specified by Federal law enforcement and other related
        	     investigative standards.

        10c.	 Ensure that all inspectors meet the training requirements as	           Met Goal
        	     specified by the President’s Council on Integrity and
        	     Efficiency “Quality Standards for Inspections.”

        	           Audits	                            Inspections	                 Investigations
        10a-c.	 100% of the Auditors 100% of the inspections staff 	 100% of the Investigators
        	       met the statutory    exceeded the CIGIE training	    met their training
        	       requirement for      standards.	                     requirements including
        			thosecontinuing education                                        prescribed by
        		      in FY 2010.                                          statute.

24   DEPARTMENT OF ENERGY, Office of Inspector General
Relationship with the Department of Energy
The work of the OIG continues to focus on the vital areas stated in the Department’s strategic
plan. The Department’s strategic themes of energy security, nuclear security, scientific discovery and
innovation, environmental responsibility, and management excellence are key areas for OIG reviews and
investigations. The OIG aligns its reviews along the same themes, with emphasis on key challenges facing
the Department. The OIG identification of key challenges brings an even sharper delineation of issues
for Departmental focus. The following are the OIG-identified Management Challenges for FY 2011:

✹✹    Contract and Financial Assistance Award Management
✹✹    Cyber Security
✹✹    Energy Supply
✹✹    Environmental Cleanup
✹✹    Human Capital Management
✹✹    Safeguards and Security
✹✹    Stockpile Stewardship

In addition, we have designated a “watch list,” which consists of the following significant issues that do
not meet the threshold of being classified as management challenges, yet warrant continued attention
by Department officials:

✹✹    Infrastructure Modernization
✹✹    Nuclear Waste Disposal
✹✹    Worker and Community Safety

In addition to responding to requests for special reviews or investigations from the Secretary and
Congress, the OIG continuously performs reviews at the Department through various planned audits
and inspections.

OIG Strategic Goal
The OIG’s strategic goal is to perform a robust review program that provides timely, relevant
performance information and recommendations to improve the Department’s programs in relation to:
      1.	   Presidential Reform Initiatives;
      2.	   Secretarial Mission Priorities; and,
      3.	   OIG-identified Management Challenges.

To ensure the integrity of the Federal and contractor workforce, the OIG completes statutory
mandates, recovers monies, and provides opportunities for savings.
                                                                        FY 2010 ANNUAL PERFORMANCE REPORT    25
                                 THIS PAGE INTENTIONALLY LEFT BLANK




26   DEPARTMENT OF ENERGY, Office of Inspector General
FY 2011 Funding Priorities
OIG Funding by Strategic Goal


T   he OIG focuses its resources toward the most significant mission-related priorities and
    challenges facing the Department. The OIG’s overarching strategic goal supports the
Department’s mission priorities and Presidential Reform Initiatives.


  Strategic Goal 	                                  FY 2010 	           FY 2011 	          FY 2011
  			                                             Appropriated	        Requested	        Appropriated

  The OIG’s Strategic 	                                $51.9	             $ 42.8	                *
  Goal is to operate a robust review	                  million 	          million 	
  program and provide timely
  performance information and
  recommendations to facilitate
  the Department’s efforts to:
  (1) implement Presidential
  Reform Initiatives;
  (2) resolve management challenges;
  (3) execute Secretarial Mission Priorities;
  and, (4) ensure the integrity of the
  Federal and contractor workforce,
  while ensuring that the OIG
  completes statutory mandates,
  recovers monies, and provides
  opportunities for savings.


*FY 2011 began under a 2–month continuing resolution. The OIG expects to receive its full FY 2011 request.




                                                                        FY 2010 ANNUAL PERFORMANCE REPORT    27
                                 THIS PAGE INTENTIONALLY LEFT BLANK




28   DEPARTMENT OF ENERGY, Office of Inspector General
FY 2011 Performance Plan
O      ur work is important to the Department’s success in fulfilling its Strategic Plan to address
       the energy, environmental, and nuclear security challenges and mission-related goals. The
OIG must ensure that its resources and activities cover the issues and concerns most critical to the
Department. This Performance Plan identifies the FY 2011 goals, objectives, and measures that
will help the OIG to better plan its priorities and continue to assist the Department in identifying
and taking corrective action to improve areas most vulnerable to waste, fraud, and mismanagement.
This Performance Plan also describes the specific projects and activities the OIG plans to undertake
during FY 2011 to continue identifying opportunities for cost savings and operational efficiencies,
and to continue to return hard dollars to the Department and the U.S. Treasury.

FY 2011 Performance Measures
For FY 2011, the OIG will measure its accomplishments against the following performance measures:



  GOAL1
  Promote Presidential Reform Initiatives, Secretarial Mission Priorities,
  and Congress.

  Objective 1:
  Conduct reviews seeking positive change in the Department relating to the implementation
  of Presidential Reform Initiatives, Secretarial Missions Priorities, and the OIG-identified
  Management Challenges.

  Performance Measures:
  1a. 	 By the end of FY 2011, complete reviews that address each Presidential, Secretarial, and 	
  	     OIG initiative, priority, and/or challenge as identified in FY 2011.

  1b. 	 At least 30% of inspection reports will address safety or security-related topics.




                                                                      FY 2010 ANNUAL PERFORMANCE REPORT   29
        GOAL2
        Improve economy and efficiency and reduce waste, fraud, and abuse within
        the Department

        Objective 2:
        Concentrate OIG efforts on issues that have the greatest impact and usefulness to
        the Department.

        Performance Measures:
        2a. 	 Ensure that every performance review includes an analysis of program accomplishments
        	     and the use of metrics to measure results.

        2b. 	 Ensure that 57% of all performance audits include recommendations leading to
        	     demonstrable cost savings, program efficiencies, and/or funds put to better use.

        2c. 	 Complete five follow-up reviews annually to determine the status and efficacy of
        	     corrective actions.

        2d. 	   By June, 2011, complete an annual risk-based programmatic assessment that considers
        	       OIG institutional knowledge; past program performance; funding levels; Presidential,
        	       Secretarial, and congressional concerns; Recovery Act initiatives; and, input from
        	       Department program managers.

        2e. 	 Ensure 80% of all planned performance audits and inspections address high-risk areas as 	
        	     identified in the OIG annual risk-based assessments.

        2f. 	 Ensure that 10% of all planned inspections address Recovery Act-funded activities




        Objective 3:
        Provide timely information to the Department so that prompt action can be taken to
        improve program performance.

        Performance Measures:
        3a. 	 Issue 80% of audit and inspection reports no later than 60 days following receipt of
        	     management comments.

        3b. 	 Ensure that the average time to issue Investigative Reports to Management is 48 days
        	     or less following final resolution of criminal, civil, and administrative investigations.




30   DEPARTMENT OF ENERGY, Office of Inspector General
Objective 4:
Strengthen financial management and cyber security through completion of mandatory
reviews in accordance with OMB and other applicable requirements.

Performance Measures:
4a. 	 Complete annually, by the established due date, the Department’s Consolidated
	     Financial Statement audits to determine whether the financial statements are free from 	
	     material misstatement.

4b. 	 By September 30, 2011, review the Department’s classified and unclassified information
	     security system programs in accordance with the Federal Information Security
	     Management Act of 2002.

4c. 	 Initiate 10 “Statement of Costs Incurred and Claimed” audits annually to assess internal
	     controls over costs claimed by the Department’s major contractors.




Objective 5:
Concentrate investigative efforts on allegations of criminal and civil violations of law
that adversely impact major Department programs and operations, with emphasis on
maximizing the recovery of public resources and deterring future wrongdoing.

Performance Measures:
5a. 	 Achieve an annual acceptance rate of 74% for cases presented for prosecutorial
	     consideration, with an enhanced focus on Recovery Act cases.

5b. 	 Ensure 75% of all cases opened focus on key areas of Department vulnerability, specifically 	
	     contract and grant fraud, environmental violations, Qui Tams, or technology crimes.




Objective 6:
Coordinate with other law enforcement agencies to establish effective networks in order
to identify areas that are most vulnerable to waste, fraud, and abuse.

Performance Measures:
6a. 	 Ensure 25% of all cases opened were joint agency/task force investigations with external
	     law enforcement agencies, such as the Federal Bureau of Investigation and other OIGs
	     including other agencies with Recovery Act funding.




                                                                  FY 2010 ANNUAL PERFORMANCE REPORT   31
        Objective 7:
        Heighten awareness of potential fraud among internal and external customers.

        Performance Measures:
        7a. 	 Provide 40 fraud awareness briefings annually to Department and contractor
        	     employees and managers, with special emphasis on Recovery Act-related fraud.




        GOAL3
        Support the Taxpayer

        Objective 8:
        Provide the Department and the public with an effective and efficient mechanism to report
        waste, fraud, and abuse.

        Performance Measures:
        8a. 	 Operate the OIG Hotline in a manner that ensures 90% of Hotline complaints warranting
        	     further action begin processing within 7 days of receipt.

        8b. 	 Forward 90% of the complaints identified for referral to Department or other agency
        	     management within 14 days.
        8c. 	 Complete Whistleblower complaints within 180 days absent extenuating circumstances.




        Objective 9:
        Make the public aware of OIG reports.

        Performance Measures:
        9a. 	 Ensure that all OIG public reports that are identified for inclusion on the Internet are
        	     posted within three working days of submission to the Secretary, unless otherwise
        	     specified by the Inspector General.




32   DEPARTMENT OF ENERGY, Office of Inspector General
Objective 10:
Provide a structure for ensuring a skilled and efficient workforce.

Performance Measures:
10a. 	 Ensure that all auditors meet the training requirements as specified by generally 		
	      accepted Government Auditing Standards.

10b. 	Ensure that all investigators meet the training requirements as specified by Federal law
	     enforcement and other related investigative standards.

10c. 	 Ensure that all inspectors meet the training requirements as specified by the President’s
	      Council on Integrity and Efficiency “Quality Standards for Inspections.”




                                                                   FY 2010 ANNUAL PERFORMANCE REPORT   33
                                 THIS PAGE INTENTIONALLY LEFT BLANK




34   DEPARTMENT OF ENERGY, Office of Inspector General
Our Organization
The OIG is organized into three major functional areas and a corporate support office:
✹✹    	Office of Audit Services
✹✹    	Office of Investigations
✹✹    	Office of Inspections and Special Inquiries
✹✹    	Office of Resource Management

OIG field offices are located at key Department sites around the Nation:




OFFICE OF AUDIT SERVICES


T     he Office of Audit Services (OAS) provides internal and contracted audit activities
      for Department programs and operations, including the NNSA and FERC; and, is
organizationally aligned with the Department’s programmatic lines in national security and
science; energy; and, environment, technology, corporate and financial operations. The Office
strives to provide reliable, credible financial and performance information to senior management,
the Congress, and the taxpayers by concentrating its efforts on economy, efficiency and program
reviews, while maintaining sound oversight of the financial statement audit. OAS’s organizational
structure helps to ensure that audit work provides comprehensive coverage over Department
organizations, programs, and operations while meeting the Department’s evolving needs.

                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   35
      With the passage of the Recovery Act, the oversight responsibilities of OAS dramatically increased.
      The Department received approximately $37 billion in Recovery Act funding for various energy,
      environmental, and science programs and initiatives. To protect the interests of the American
      taxpayers and ensure accountability and transparency, OAS will devote a significant amount of audit
      resources to fulfill its Recovery Act oversight responsibilities.

      The Office uses a risk-based process for identifying areas for audit coverage. Specific areas
      with known or emerging risks and the greatest vulnerabilities are identified. This process leads
      to conducting program performance reviews that address Presidential Reform Initiatives; the
      Department’s Strategic Themes and Goals; OIG-identified management challenges; as well as
      Congressional interests. A significant portion of audit resources is directed toward meeting OIG
      statutory audit responsibilities in the financial and information technology areas.

      The OAS plans to start 78 performance audits in FY 2011. Many non-discretionary taskings
      from external sources impact the OAS workload and may require postponement or cancellation of
      planned audits to accommodate these demands. Following is a summary of the audits’ objectives
      that are scheduled to begin in FY 2011, grouped by the Department’s Business Lines. The planned
      audit workload is summarized later in this plan.

      National Security and Science
      To protect our national security by applying advanced science and nuclear technology to the Nation’s
      defense, and to contribute to the protection of the U.S. national and economic security by providing
      world-class scientific research capacity and advancing scientific knowledge, the following audits will
      determine whether the:

      ✹✹    Department is effectively utilizing its protective force training facilities (A11LL008)
      ✹✹    Stockpile Surveillance Transformation Project has met cost, scope, and schedule milestones for
            implementation of the project, including necessary support from the Enhanced Surveillance
            Campaign (A11AL001)
      ✹✹    NNSA is effectively managing the Megaports Initiative and whether host governments are
            assuming full operational responsibility for the equipment (A11AL002)
      ✹✹    Department is effectively managing its helium-3 inventory (A11CH007)
      ✹✹    NNSA’s goal of having the JASPER facility back up and operational by the summer of 2011 is
            proceeding as planned (A11LV010)
      ✹✹    Office of Science achieved the cost and schedule objectives of the Dark Energy Survey Project
            (A11CH006)



36   DEPARTMENT OF ENERGY, Office of Inspector General
✹✹    Department is effectively managing the Chemistry and Metallurgy Research Building
      Replacement Project at the Los Alamos National Laboratory (A11AL004)
✹✹    NNSA has the capability to meet increased dismantlement requirements (A11LV009)
✹✹    Global Threat Reduction program is effectively managing its small business and foreign
      contracts (A11AL003)
✹✹    Department is on track to develop a reliable domestic production capability for moly-99
      isotopes (A11YT013)
✹✹    Global Threat Reduction Initiative’s (GTRI) Remove and Protect programs are achieving their
      goals and supporting the GTRI mission (A11LV011)
✹✹    Recovery Act projects at Lawrence Berkeley National Laboratory are meeting program goals
      and objectives; and, are within cost and schedule (A11RA003)
✹✹    Department has successfully implemented the Graded Security Protection policy
      (A11YT012)
✹✹    Office of Science’s Atmospheric System Research program is meeting its goals and objectives
      (A11RA002)
✹✹    Department has effectively managed its international offices and foreign assignments
      (A11CH005)
✹✹    Contract and grant recipients are using State Energy Program funds for their intended
      purpose and the use of funds is transparent to the public (A11RA001, A11RA004, and
      A11RA005).

Energy
To contribute to the protection of the nation’s economic security by promoting a diverse supply and
delivery of reliable, clean, and affordable energy, the following audits will determine whether the:
✹✹ Department is effectively utilizing and managing Utility Energy Service Contracts to achieve
      energy savings (A11GT002)
✹✹    Department is effectively and efficiently managing its Appliance and Commercial Equipment
      Energy Efficiency Standards Program (A11HQ005)
✹✹    Department has an effective renewable energy program to achieve the Federal requirements
      through on-site projects (A11OR006)
✹✹    Department established effective controls over the cooperative agreements and contracts
      under the Concentrating Solar Power Program (A11RA012)
✹✹    Department utilizes commissioning (retro-commissioning for existing buildings) and
      advanced metering to the maximum extent practicable in its facilities (A11HQ003)


                                                                      FY 2010 ANNUAL PERFORMANCE REPORT   37
      ✹✹    Department’s Pollution Prevention Program is meeting its Department-wide and site-specific
            goals and verify that corrective actions were taken in response to our previous report (A11PT007)
      ✹✹    Internal controls were in place and operating as intended over the Smart Grid Investment
            Grant and Demonstration programs (A11RA016)
      ✹✹    Department’s Advanced Technology Vehicle Manufacturing Loan Program has internal
            controls in place to minimize the risk of loss to the Government (A11HQ004)
      ✹✹    Department has purchased qualified Renewable Energy Certificates that meet the
            requirements of the Energy Policy Act of 2005 (A11DN001)
      ✹✹    Department has implemented effective management controls over the Interconnection
            Transmission Planning Program (A11RA015)
      ✹✹    Department implemented controls over the Appliance Rebate Program to ensure that
            Recovery Act goals are met (A11RA011)
      ✹✹    Department’s Weatherization Assistance Program is performing efficiently and effectively
            (A11RA009)
      ✹✹    Department is monitoring grants and enforcing award conditions while ensuring the objectives
            of the Advanced Battery and Hybrid Components program are achieved (A11RA020)
      ✹✹    Department and grant recipients have internal controls in place to provide assurance that the
            goals of the Energy Efficiency and Conservation Block Grant Program and Recovery Act are
            being met and being accomplished efficiently and effectively (A11RA006, A11RA017, and
            A11RA021)
      ✹✹    Department ensured that Fossil Energy Research and Development cooperative agreements
            were managed in accordance with the Recovery Act (A11RA018)
      ✹✹    Contract and grant recipients are using Weatherization Assistance Program funds for
            their intended purpose (A11RA007, A11RA008, A11RA010, A11RA013, A11RA014,
            A11RA019, A11RA022, and A11RA023).

      Environment, Technology, Corporate and Financial Management
      To protect the environment by providing a responsible resolution to the environmental legacy of the
      Cold War and by providing for the permanent disposal of the Nation’s high-level radioactive waste,
      the following audits will determine whether the:

      ✹✹    Environmental Management’s small site Recovery Act projects are being effectively managed
            to meet programmatic and Recovery Act goals (A11RA028)
      ✹✹    Department effectively used performance measures and fees to appropriately reward
            contractor performance at the Idaho National Laboratory (A11ID006)


38   DEPARTMENT OF ENERGY, Office of Inspector General
✹✹   Office of Environmental Management is effectively and efficiently using the Consolidated
     Business Center to accomplish mission essential services (A11SR017)
✹✹   Department has a comprehensive remediation strategy for miscellaneous waste tanks at the
     Hanford Site (A11RL014)
✹✹   Portsmouth and Paducah Recovery Act projects are being effectively managed to meet
     programmatic and Recovery Act goals (A11RA027)
✹✹   Appropriate requirements were imposed on equipment in the black cells at the Waste
     Treatment Plant (A11RL011)
✹✹   Office of Nuclear Energy effectively manages its cooperative agreements and grants
     (A11ID009)
✹✹   Department has planned the construction and operation of the Environmental Management
     Waste Management Facility to maximize its resources (A11ET005)
✹✹   K-33 Recovery Act project is being effectively managed to meet programmatic and Recovery
     Act goals (A11RA026)
✹✹   Technology Transfer programs at select sites are operating within contractual spending
     limits and whether royalties due from licensing activities are being tracked and collected
     (A11ID010)
✹✹   Department is making progress in meeting its goals of consolidating Special Nuclear
     Materials within the complex (A11SR016)
✹✹   Environmental Molecular Science Laboratory is being effectively administered and managed
     (A11RL012)
✹✹   Department has efficiently managed the Decontamination and Decommissioning program
     (A11ID008)
✹✹   Department has designated disposition pathways for surplus nuclear materials (A11SR015)
✹✹   Department will complete remediation of the 618-10 and 618-11 burials grounds by 2015
     (A11RL013)
✹✹   NNSA has completed the design of the Advanced Recovery and Integrated Extraction
     System and the facility in which it will be housed to meet the product needs of the MOX Fuel
     Fabrication Facility (A11ET004)
✹✹   Department is effectively managing the storage and transfer of spent nuclear fuel (A11ID007)
✹✹   States are using State Energy Program funds for their intended purpose and Recovery Act
     goals are being met (A11RA029, A11RA030, and A11RA031).




                                                                     FY 2010 ANNUAL PERFORMANCE REPORT   39
      To assure the American public that the Department is fiscally responsible in carrying out its mission;
      promotes effective contract management; ensures the Department has metrics in place and uses
      them to manage its programs and activities effectively; and promotes the safety and health of the
      Department’s workforce, the following audits will determine whether the:

      ✹✹    Department is adequately managing the expanding use of cloud computing services (A11TG021)
      ✹✹    Department has effectively implemented the recommendation made in the prior audit and
            whether adequate controls are in place for the management and oversight of term contractor
            employees assigned throughout the Department (A11CP003)
      ✹✹    Department adequately protected its national security information systems at Los Alamos
            National Laboratory (A11TG019)
      ✹✹    Department is making small business awards as required under the Recovery Act and whether
            the awards are being adequately managed (A11RA025)
      ✹✹    NNSA’s Nuclear Emergency Support Team is being effectively managed and if its information
            technology equipment is being tested and maintained (A11TG025)
      ✹✹    Department considers prior performance when making new non-facilities contract, grant and
            financial assistance awards (A11CP001)
      ✹✹    Contractor assurance information systems have been effectively implemented and utilized at
            the Department’s field sites (A11TG022)
      ✹✹    Department has developed an effective plan to transition its Recovery Act workforce as
            Recovery Act funds are expended (A11RA024)
      ✹✹    Department implemented an effective configuration management process over high-risk and
            mission essential contractor systems (A11TG024)
      ✹✹    Department is managing its Data Centers in an energy-efficient manner (A11TG023)
      ✹✹    Bonneville Power Administration effectively and efficiently implemented its Information
            Technology program (A11TG020)
      ✹✹    Department is effectively managing its External Independent Review process over project
            management for the acquisition of capital assets (A11CP002)
      ✹✹    Department adequately managed the development and implementation of the Smart
            Grid to ensure operational effectiveness and whether cyber security controls were in place
            (A11TG018).




40   DEPARTMENT OF ENERGY, Office of Inspector General
To contribute to the effectiveness of the Department’s financial management, the following audits
will be performed:

✹✹    A11FN001 – Department of Energy’s Consolidated Financial Statement Audit FY 2011
✹✹    A11FN002 – FERC’s Financial Statement Audit FY 2011
✹✹    A11FN003 – Decommissioning and Decontamination Fund FY 2011 GMRA
✹✹    A11FN004 – Isotope Production and Applications Program Financial Statement Audit FY 2011
✹✹    A11FN005 – Southwestern Power Administration Financial Statement Audit FY 2011
✹✹    A11FN006 – IT Management Letter FY 2011
✹✹    A11FN007 – Financial Management Letter FY 2011


Office of Inspections and Special Inquiries

The Office of Inspections and Special Inquiries (OISI) conducts performance, allegation-based
and ad-hoc inspections, as well as special inquiries in response to concerns raised by Congress,
senior Department managers, and others. OISI also manages the OIG Hotline Operation,
the Management Referral System and the Recovery Act Whistleblower Program. Although
OISI plans a significant portion of its annual inspection work, it retains flexibility so that it can
promptly address concerns and allegations received during the course of the year. When planning
its performance inspection work, OISI identifies and prioritizes topics responsive to Presidential
Reform Initiatives, the Secretary’s Mission Priorities, and the Department’s Management
Challenges as identified by the OIG. Inspections are initiated with consideration given to their
significance and potential impact on Department programs and operations.

In light of the considerable oversight requirements specified by the Recovery Act and the heighten
concerns over homeland security, OISI is focusing its resources to address projects concerning
Recovery Act, corporate management, and critical safety and security issues affecting Department
programs and operations. Following is a summary of the inspections’ objectives that are scheduled
to begin in FY 2011, grouped by the Department’s Business Lines.




                                                                       FY 2010 ANNUAL PERFORMANCE REPORT   41
      Safety
      To protect the safety of Federal and contractor employees, as well as the public, the following
      inspections will determine whether:

      ✹✹    Federally regulated chemical agents at selected sites are being handled, stored and tracked
            appropriately to ensure that such chemicals are not being misused.
      ✹✹    A selected site is appropriately managing the Radiation Protection Program.
      ✹✹    Low-level radioactive waste, class C explosives, cyanide and classified materials at a
            Department site are being properly monitored, accounted for and disposed of.
      ✹✹    Radiological waste operations at a selected site are being conducted in a safe manner.

      Security
      To strengthen the national security of the United States of America and the security of Department
      site operations, the following inspections will determine whether:

      ✹✹    The National Nuclear Security Administration’s Megaports Initiative is being effectively
            managed.
      ✹✹    The effectiveness and efficiency of the Department’s Continuity of Operations (COOP)
            plans and Intelligence Readiness
      ✹✹    The National Nuclear Security Administration’s Global Threat Reduction Initiative
            Radiological Source Program is meeting the program milestones.
      ✹✹    Tactical Response Force planning at selected Department Sites are adequate.

      Corporate Management
      To promote excellence through sound management and contracting practices, the following
      inspections will determine whether:

      ✹✹    Government furnished property is disposed of within a timely manner to ensure that the
            property is properly managed and accounted for at selected Department sites.
      ✹✹    Department funds are being appropriately used at a selected site by awarding contracts for
            work that can be performed by site employees.
      ✹✹    Department funds are being appropriately used at a selected site.
      ✹✹    The site’s worker’s compensation program is appropriately managed to prevent overpayment
            and facilitate timely resolution of all claims of injury.



42   DEPARTMENT OF ENERGY, Office of Inspector General
Recovery Act
To aid in the prevention and detection of waste, fraud, and abuse, and assist in providing
transparency for distributing and using Recovery Act-related funds, the following inspections will
determine whether:

✹✹    The Department is providing sufficient opportunities for small businesses to compete for
      contracts awarded under the Recovery Act.
✹✹    Decommissioning and Demolition Projects (funded by the Recovery Act) at a Department
      site are effectively completed.
✹✹    Medical certifications for contractors (funded by the Recovery Act) at a selected site are
      adequate to ensure the safety of the individual and the public.

Implementation Reviews
To assure Department management is taking corrective actions to improve programs, processes,
and operations, we will conduct reviews to determine whether the Department has effectively
implemented recommendations in the following prior inspection reports:

✹✹    Inspection on Oversight of Shock Sensitive Chemicals at a Department Site (DOE/IG-0615)
✹✹    Inspection on Emergency Communications Network Equipment (ECN) (DOE/IG-0663)
✹✹    Inspection on Recording Telephone Conversations at a Department Site (DOE/IG-0717)


Office of Investigations


T      he Office of Investigations (OI) conducts investigations into alleged violations of law that impact
       Department programs, operations, facilities, and personnel. Priority is given to investigations
of suspected violations of criminal and civil statutes, as well as serious administrative misconduct.
Criminal Investigators within OI work closely with Department of Justice (DOJ) prosecutors and
other Federal, State, and local law enforcement organizations utilizing a full range of law enforcement
authorities, such as carrying firearms, applying for and executing search warrants, and making
arrests. The work of OI, however, extends beyond the conduct of investigations – namely, the office
identifies opportunities for improving the economy and efficiency of Departmental programs
and operations by issuing reports that recommend positive change. OI’s accomplishments are
measured by recommendations accepted by management, investigations accepted for prosecutive
action, cooperative efforts with other law enforcement agencies, and proactive initiatives. Through
accomplishments in those areas, the office plays a major role assisting the OIG in promoting the
efficient, effective, and economical operation of the Department, including NNSA.

                                                                         FY 2010 ANNUAL PERFORMANCE REPORT   43
      National Program Area Initiative
      The work performed by OI is primarily reactive in nature and has the potential of reaching
      into any Departmental major program area, including NNSA and FERC. The establishment
      of the National Program Area Initiative has afforded OI the opportunity to identify program
      areas in the Department most vulnerable to fraud, waste, and abuse and to proactively dedicate a
      significant portion of investigative resources, to include special agent training, liaison development,
      and specialized studies, to those program areas. OI’s National Program Area Initiative
      concentrates on four areas, which are also tied into the Department’s strategic themes. The four
      areas are: (1) contract and grant fraud; (2) environment, safety, and health (ES&H) violations;
      (3) Qui Tams; and, (4) technology crimes. One of OI’s goals is to have 75 percent of its open
      investigations address at least one of the four areas. In FY 2011, work on the National Program
      Area Initiative will continue to move forward as plans are implemented and expanded.

      Contract and Grant Fraud
      During FY 2010, OI continued to identify and interact with key Department and NNSA procurement
      personnel, as well as conduct fraud awareness briefings with special emphasis on procurement and
      grant fraud. A majority of the Department’s budget is expended on contracts and grants; therefore,
      the opportunity for fraud to occur or exist within various Department programs is significant.
      Given the continuing potential for significant fraud, to include potential fraud in the Department’s
      Loan Guarantee Program, and the Department’s responsibility to oversee the $25 billion Advanced
      Technology Vehicle Loan Program, in FY 2011, OI will continue to: (1) expand fraud awareness
      briefings throughout the Department, including NNSA, with special emphasis on Recovery Act
      matters; (2) prioritize contract and grant fraud investigations, placing emphasis on cases with a
      potential high dollar recovery to the Department; (3) work with established contract and grant task
      forces, and identify opportunities to establish new task forces with DOJ involvement; (4) coordinate
      and pursue leads referred by the OIG Offices of Audit Services and Inspections; and, (5) identify and
      pursue contract and grant fraud investigations proactively, with a focus on Recovery Act matters.

      Environment, Safety, and Health (ES&H)
      The Department’s program for cleaning up the environmental contamination caused by nuclear
      weapons research, production, and testing is estimated to cost over $200 billion over the next several
      decades. With the end of the Cold War, the mission to clean up the environment has become more
      essential as a result of more than 50 years of nuclear defense work and energy research. The OIG
      has identified environmental cleanup as a Department Management Challenge that is likely to
      persist well into the future. OI’s ES&H program area supports the Department’s Environmental
      Responsibility strategic theme. Ensuring the safety and health of the public and the Department’s
      workers is a top priority. In FY 2011, OI will continue to: (1) work with established ES&H task
      forces; (2) identify opportunities to establish new task forces; and, (3) develop and maintain ES&H
      contacts in the Department, NNSA, and other Government agencies.

44   DEPARTMENT OF ENERGY, Office of Inspector General
Qui Tams
As a rule, Qui Tam-related allegations are complex and staff-hour intensive. As of September 30,
2010, OI had 13 open Qui Tam investigations with claims alleging fraud of $391 million. These
investigations often have a major impact on the Department and generally involve significant
allegations of fraud involving millions of dollars and multiple Federal agencies. OI continues to work
closely with the DOJ’s Commercial Litigation Branch in the investigation and analysis of Qui Tam
cases. In FY 2011, OI will continue to: (1) assist DOJ in investigating and providing analysis
of Qui Tam cases; (2) adjust resources appropriately to ensure priority Qui Tam cases are being
resolved in a timely manner; and, (3) identify specific Qui Tam training for OI personnel.

Technology Crimes
Information Technology, another of the Department’s major issue areas, received a significant amount
of OI’s resources and attention during FY 2010. OI’s Technology Crimes Section (TCS) is staffed by
investigators with the specialized skills necessary to proactively and reactively investigate the expanding
number of complex technology crimes that are occurring within many of the Department’s programs.
TCS further strengthens OI’s support to the Department, including NNSA, in detecting, preventing,
and investigating illegal network intrusions. Utilization of such a group is critical because of the risks and
vulnerabilities on the rise (i.e., security breaches, computer systems intrusions, virus attacks, and employee
misuse). In FY 2010, TCS provided technical expertise on standard fraud cases. Additionally, TCS
investigations also led to several criminal convictions against individuals who compromised Government
computers or misused them by accessing or storing sexually explicit material to include child pornography.

During FY 2011, TCS will: (1) continue to proactively contribute to and support fraud investigations
through consultations and forensic media analysis; (2) investigate incidents of technology crimes and non-
compliance with applicable regulations involving protection of the information infrastructure throughout
the Department; (3) clarify and extend OI’s role in technology incident response and investigations in
the Department; (4) ensure all TCS special agents continue to receive required technical training; and,
(5) refine and provide technology crimes awareness briefings throughout the Department complex.

Proactive Work
Historically, OI’s response to allegations of wrongdoing has been reactive in nature. However, OI
succeeded in implementing a process that streamlined and formalized proactive case development
with a targeted approach designed to ensure more efficient and effective use of resources. OI will
continue its pursuit of proactive initiatives designed to effect positive change within the Department
and enhance OI’s ability to meet organizational goals and objectives. Close attention will be paid
to OI’s infrastructure needs to ensure adequate skills, tools, and processes are in place to respond
promptly and appropriately to emerging priority issues identified by the President, Secretary, Congress,
and public. Partnerships with other established law enforcement agencies, Department managers,
and employees will be expanded, and productive sources of information will be further cultivated.

                                                                            FY 2010 ANNUAL PERFORMANCE REPORT    45
      Appendix A
                          Planned Fiscal Year 2011 Audits
      Audit Number	                                  Title
      National Security and Science
      A11AL001	                 Implementation of the Stockpile Surveillance Transformation Project
      A11AL002	                 NNSA’s Megaports Initiative
      A11AL003	                 GTRI Contract Administration
      A11AL004	                 CMRR Project at Los Alamos National Laboratory
      A11CH005	                 DOE International Offices and Foreign Assignments
      A11CH006	                 Fermi’s Contribution to the Dark Energy Survey Project
      A11CH007	                 Helium-3 Inventory
      A11LL008	                 Protective Force Training Facilities
      A11LV009	                 NNSA Dismantlement Activities
      A11LV010	                 JASPER Facility at the Nevada Test Site
      A11LV011	                 GTRI Removal and Protection Programs
      A11YT012	                 Graded Security Protection Policy
      A11YT013	                  Moly-99 Program
      Energy	
      A11DN001	                 WAPA Renewable Energy Credits
      A11GT002	                 Utility Energy Service Contracts
      A11HQ003	                 Energy Savings Through Commissioning and Advanced
          	                     Metering of DOE Facilities
      A11HQ004	                 Advanced Technology Vehicle Manufacturing Loan Program
      A11HQ005	                 Management of Minimum Energy Efficiency Standard
          	                     Setting Activities
      A11OR006	                 Renewable Energy Projects
      A11PT007	                 Follow-up on the Pollution Prevention Program
      Environment, Technology and Corporate
      A11CP001	                 Non-Facilities Contractor Prior Performance
      A11CP002	                 External Independent Review Process over Project Management
      A11CP003	                 Follow-up on Term Assignments of Contractors
      A11ET004	                 Advanced Recovery and Integrated Extraction System
      A11ET005	                 Environmental Management Waste Management Facility
      A11ID006	                 Battelle Energy Alliance Performance Evaluation Management
           	                    Plan Follow-up

46   DEPARTMENT OF ENERGY, Office of Inspector General
A11ID007	       Management of the Spent Nuclear Fuel Program
A11ID008	       Management of Decontamination and Decommissioning Activities
A11ID009	       Nuclear Energy’s Management of Cooperative Agreements and Grants
A11ID010	       Technology Transfer Follow-up
A11RL011	       Equipment in the Black Cells at the Waste Treatment Plant
A11RL012	       Management and Administration of the Environmental Molecular
     	          Science Laboratory
A11RL013	       Remediation of the 618-10 and 618-11 Burial Grounds
A11RL014	       Hanford’s Miscellaneous Waste Tanks
A11SR015	       Disposition of Orphaned Surplus Nuclear Materials
A11SR016	       Special Nuclear Materials Storage Consolidation
A11SR017	       Environmental Management’s Consolidated Business Center
A11TG018	       Cyber Security and Operational Controls Over Smart Grid
     	          Technologies
A11TG019	       Protection of National Security Information Systems at Los Alamos
     	          National Laboratory
A11TG020	       Management of BPA’s IT Program
A11TG021	       Management of Cloud Computing Services
A11TG022	       Utilization of Contractor Assurance Information Systems
A11TG023	       Efforts to Ensure Energy-Efficient Data Center Management
A11TG024	       Configuration Management of High Risk and Mission Essential
     	          Contractor Systems
A11TG025	       NNSA’s Nuclear Emergency Support Team Operations
A11TG026	       Department of Energy’s Implementation of FISMA
A11TG027	       FERC’s Implementation of FISMA


Planned Fiscal Year 2011 GMRA Audits
A11FN001	       Department of Energy’s Consolidated Financial Statement Audit
    	           FY 2011
A11FN002	       FERC’s Financial Statement Audit FY2011
A11FN003	       Decommissioning and Decontamination Fund FY 2011 GMRA
A11FN004	       Isotope Production and Applications Program Financial
    	           Statement Audit FY 2011
A11FN005	       Southwestern Power Administration Financial Statement Audit
    	           FY 2011
A11FN006	       IT Management Letter FY 2011
A11FN007	       Financial Management Letter FY 2011


                                                    FY 2010 ANNUAL PERFORMANCE REPORT   47
      Planned Fiscal Year 2011 Statement of Costs
      Incurred and Claimed Audits
      A11AL014	                 Sandia 2009-2010 SCIC
      A11AL015	                 Los Alamos National Security, LLC 2010 SCIC
      A11CH016	                 University of Chicago, Argonne, LLC 2010 SCIC
      A11CH017	                 Brookhaven Science Associates, LLC 2008-2010 SCIC
      A11CH018	                 Jefferson Science Associates, LLC 2006-2009 SCIC
      A11CH019	                 Princeton Plasma Physics Laboratory 2009-2010 SCIC
      A11ID028	                 Battelle Energy Alliance, LLC 2009 SCIC
      A11LL020	                 Lawrence Livermore National Security, LLC 2009-2010 SCIC
      A11LL021	                 University of California at Berkeley 2009-2010 SCIC
      A11PT008	                 Naval Reactors – Knolls and Bettis Laboratories 2009-2010 SCIC
      A11RL029	                 Battelle Memorial Institute at Pacific Northwest National
           	                    Laboratory 2009 SCIC
      A11SR030	                 Savannah River Nuclear Solutions 2010 SCIC
      A11YT022	                 Babcock & Wilcox Y-12 LLC 2010 SCIC
      A11YT023	                 UT Battelle, LLC 2010 SCIC




      Planned Fiscal Year 2011 American Recovery
      and Reinvestment Act Audits
      A11RA001	                 State Energy Program
      A11RA002	                 Office of Science’s Climate Program
      A11RA003	                 Recovery Act Projects at Lawrence Berkeley National Laboratory
      A11RA004	                 State Energy Program
      A11RA005	                 State Energy Program
      A11RA006	                 Energy Efficiency and Conservation Block Grant Program
      A11RA007	                 Weatherization Assistance Program
      A11RA008	                 Weatherization Assistance Program
      A11RA009	                 Quality of Workmanship in the Weatherization Assistance Program
      A11RA010	                 Weatherization Assistance Program
      A11RA011	                 Management Controls over the Appliance Rebate Program
      A11RA012	                 Implementation of the Concentrating Solar Power Program
      A11RA013	                 Weatherization Assistance Program
      A11RA014	                 Weatherization Assistance Program



48   DEPARTMENT OF ENERGY, Office of Inspector General
Planned Fiscal Year 2011 American Recovery and Reinvestment Act Audits (con’t)
A11RA015	               Management of the Interconnection Transmission Planning Program
A11RA016	               Smart Grid Investment Grant and Demonstration Programs
A11RA017	               Energy Efficiency and Conservation Block Grant Program
A11RA018	               Management of the FutureGen Cooperative Agreement
A11RA019	               Weatherization Assistance Program
A11RA020	               Follow-up of the Advanced Battery and Hybrid Components Program
A11RA021	               Energy Efficiency and Conservation Block Grant Program
A11RA022	               Weatherization Assistance Program
A11RA023	               Weatherization Assistance Program
A11RA024	               Managing Post-Recovery Act Workforce and Operational Activities
A11RA025	               Small Business Awards under the Recovery Act
A11RA026	               Demolition and Disposition of the K-33 Building
A11RA027	               Recovery Act Activities at Portsmouth and Paducah
A11RA028	               Small Site Environmental Management Recovery Act Projects
A11RA029	               State Energy Program
A11RA030	               State Energy Program
A11RA031	               State Energy Program




                                                           FY 2010 ANNUAL PERFORMANCE REPORT   49
                     Planned Fiscal Year 2011 Inspections

      Safety
            Handling, Storing and Tracking Regulated Chemicals at a Department Site
            Radiation Protection Program at a Department Site
            Low Level Radioactive Waste Disposal at a Department Site
            Radiological Waste Operations at a Department Site

      Security
            National Nuclear Security Administration’s (NNSA’S) Megaport Initiative
            Continuity of Operations (COOP) and Intelligence Readiness
            NNSA’s Global Threat Reduction Initiative (GTRI) Radiological Source Program
            Tactical Response Force Planning at Selected Department Sites

      Corporate Management
            Disposal of Government Furnished Property Issued to Contractors at Power Administration Sites
            Use of Consulting Contracts at a Department Site
            Water Conservation Test Bed at a Department Site
            Worker’s Compensation Program at a Department Site

      Recovery Act
            Department’s Efforts to Utilize Small Business Contracts During Recovery Act Implementation
            Safety of Decommissioning and Demolition Projects at Department Sites
            American Recovery and Reinvestment Act Medical Screening at a Department Site

      Implementation Reviews
            Follow-up Inspection on Oversight of Shock Sensitive Chemicals at a Department Site
            Follow-up Inspection on Emergency Communications Network Equipment (ECN)
            Follow-up Inspection on Recording Telephone Conversations at a Department Site
            Follow-up Review of the Department of Energy’s Canine Program at Selected Department Sites




50   DEPARTMENT OF ENERGY, Office of Inspector General
Appendix B
OIG RESPONSIBILITIES AND AUTHORITIES
The Inspector General Act of 1978, as amended, requires the OIG to:

✹✹   Conduct independent and objective audits and investigations;
✹✹   Promote economy, efficiency, and effectiveness;
✹✹   Prevent and detect waste, fraud, and abuse;
✹✹   Review pending legislation and regulations; and,
✹✹   Keep the Secretary and Congress fully and currently informed.




OTHER MANDATES
✹✹   Government Performance and Results Act (GPRA) of 1993. Continuous review of the
     Department’s implementation.
✹✹   Executive Order 12863, “President’s Foreign Intelligence Advisory Board,” 1993.
     Reports to the Intelligence Oversight Board as required quarterly and “as necessary or
     appropriate.” This includes reviews to ensure the Department’s intelligence activities are
     conducted in accordance with existing requirements of Executive Order 12333, “United
     States Intelligence Activities.”
✹✹   Government Management Reform Act (GMRA) of 1994. Annual audit of Department-
     wide and designated component financial statements.
✹✹   National Defense Authorization Act of 2000. Annual review of Department policies
     and procedures with respect to the export of sensitive U.S. military technologies and
     information to countries and entities of concern.
✹✹   Reports Consolidation Act of 2000. Annual audit to identify the most significant
     management and performance challenges facing the Department.
✹✹   Federal Information Systems Management Act (FISMA) of 2002. Annual review of
     Department information security systems.
✹✹   Section 522 of the Consolidated Appropriations Act of 2005. Biennial review of the
     actions of the Department’s Chief Privacy Officer.
✹✹   American Recovery and Reinvestment Act of 2009. Oversight of the Department’s
     programs, grants, and activities funded by the Act.
✹✹   Department of Energy Orders. Audits of statements of costs incurred and claimed by
     the Department’s integrated contractors.




                                                                  FY 2010 ANNUAL PERFORMANCE REPORT   51
      Appendix C
      Validation and Verification
      The OIG validates and verifies its performance activities by:

           Data Sources:	   OIG Semiannual Reports to Congress; Inspector General Act of 1978, as
                	           amended; Government Management Reform Act; Government 			
                	           Performance 	and Results Act; Government Information Security Reform 	
                	           Act; False Claims Act; Executive Order 12863, “President’s Foreign 			
                	           Intelligence Advisory 	Board”; and, Executive Order 12333, “United States 	
                	           Intelligence Activities.”

           Frequency:	      Biennially/Annually/Semiannually/Quarterly.

           Data Storage: 	 OIG Energy Inspector General Project Tracking System.

           Verification:	   OIG policies and procedures; Yellow Book Standards; President’s Council 	
                  	         on Integrity and Efficiency Quality Standards for Investigations and 			
                  	         Inspections; and, internal and external peer reviews.




52   DEPARTMENT OF ENERGY, Office of Inspector General
Department of Energy, Office of Inspector General
